                                                         NATIONAL SCIENCE FOUNDATION
                                                          OFFICE OF INSPECTOR GENERAL
                                                            OFFICE OF INVESTIGATIONS

                                                 CLOSEOUT MEMORANDUM

 Case Number: 109030012·                                                                     Page 1 of 1


                                                                                        i
          We received a complaint related to mismanagement of federal award funds at a component l of an
          institution? The complaint included a list of the institution's project numbers, two of which
          correlated to NSF awards. 3 The allegations pertained to consultant payments, travel expenses,
          and time and attendance abuse. Based on the documentation reviewed, we determined the                \

          consultant and travel allegations were unsubstantiated; however, we were not entirely confident
          that there are no time and attendance issues. Therefore, we issued a letter urging the institution
          (1) to ensure the timecards accounting for time worked on NSF awards are accurate and properly
          certified and (2) to reiterate its time and attendance policy with staff.

                     Accordingly, this case is closed.




                                                          \




NSF OIG Form 2 (I 1/02)
